<html>
<title> - SMALL BUSINESS HELPING THE DISABLED LEAD PRODUCTIVE LIVES</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
                SMALL BUSINESS HELPING THE DISABLED LEAD
                            PRODUCTIVE LIVES
=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON SMALL BUSINESS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                   WASHINGTON, DC, SEPTEMBER 24, 2002

                               __________

                           Serial No. 107-70

                               __________

         Printed for the use of the Committee on Small Business








                          U.S. GOVERNMENT PRINTING OFFICE
82-578                             WASHINGTON : 2002
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






                      COMMITTEE ON SMALL BUSINESS

                  DONALD MANZULLO, Illinois, Chairman
LARRY COMBEST, Texas                 NYDIA M. VELAZQUEZ, New York
JOEL HEFLEY, Colorado                JUANITA MILLENDER-McDONALD, 
ROSCOE G. BARTLETT, Maryland             California
FRANK A. LoBIONDO, New Jersey        DANNY K. DAVIS, Illinois
SUE W. KELLY, New York               BILL PASCRELL, Jr., New Jersey
STEVE. CHABOT, Ohio                  DONNA M. CHRISTENSEN, Virgin 
PATRICK J. TOOMEY, Pennsylvania          Islands
JIM DeMINT, South Carolina           ROBERT A. BRADY, Pennsylvania
JOHN R. THUNE, South Dakota          TOM UDALL, New Mexico
MICHAEL PENCE, Indiana               STEPHANIE TUBBS JONES, Ohio
MIKE FERGUSON, New Jersey            CHARLES A. GONZALEZ, Texas
DARRELL E. ISSA, California          DAVID D. PHELPS, Illinois
SAM GRAVES, Missouri                 GRACE F. NAPOLITANO, California
EDWARD L. SCHROCK, Virginia          BRIAN BAIRD, Washington
FELIX J. GRUCCI, Jr., New York       MARK UDALL, Colorado
TODD W. AKIN, Missouri               JAMES R. LANGEVIN, Rhode Island
SHELLEY MOORE CAPITO, West Virginia  MIKE ROSS, Arkansas
BILL SHUSTER, Pennsylvania           BRAD CARSON, Oklahoma
                                     ANIBAL ACEVEDO-VILA, Puerto Rico
                      DOUG THOMAS, Staff Director
                  PHIL ESKELAND, Deputy Staff Director
                  MICHAEL DAY, Minority Staff Director











                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 24, 2002...............................     1

                               Witnesses

Grizzard, Hon. Roy, Assistant Secretary, Office of Disability 
  Employment Policy, U.S. Department of Labor....................     4
Coehlo, Hon. Tony, Alexandria, VA................................     6
Fiore, Janet, CEO, The Sierra Group, Inc., The King of Prussia 
  Medical Center.................................................     8
Kosak, Phil, President, Carolina Fine Snacks.....................     9
Lupovitz, Sanford, President, RIBI Security......................    11
Vidal, Guillermo ``Bill,'' Executive Director, Denver Regional 
  Council of Governments (DRCOG).................................    25
Kane, Tim, President, International Telework Association and 
  Council (ITAC).................................................    26
Anderson, Jane, Executive Director, Midwest Institute for 
  Telecommuting Education........................................    28

                                Appendix

Opening statements:
    Manzullo, Hon. Donald........................................    38
    Udall, Hon. Mark.............................................    40
    Davis, Hon. Danny............................................    42
    Schrock, Hon. Ed.............................................    48
Prepared statements:
    Grizzard, Hon. Roy...........................................    49
    Fiore, Janet.................................................    54
    Lupovitz, Sanford............................................    60
    Vidal, Guillermo.............................................    63
    Kane, Tim....................................................    67
    Anderson, Jane...............................................    71
Additional Information:
    Submission of Gary W. Orazio, President, Swanson Rink, Inc...    85
    Submission of Bob Chamberlin, President, NISH................    87
    Post-Hearing Submission of Janet Fiore, CEO, The Sierra 
      Group, Inc., The King of Prussia Medical Center............    90











       SMALL BUSINESS HELPING THE DISABLED LEAD PRODUCTIVE LIVES

                              ----------                              


                      TUESDAY, SEPTEMBER 24, 2002

                          House of Representatives,
                               Committee on Small Business,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:15 a.m. in room 
2172, Rayburn House Office Building, Hon. Donald Manzullo, 
Chairman, presiding.
    Chairman Manzullo. We will call this meeting of the Small 
Business Committee to order. Welcome this morning. We don't 
have to worry about any bells going off for some votes. Isn't 
that wonderful. That's great.
    We have two hearings today. The Role the Federal Government 
and Small Businesses are Playing in Assisting Individuals with 
Disabilities. That is the first panel. The second panel is the 
Advantages of Telecommuting.
    A special welcome to those who have come some distance to 
participate and to attend this hearing. The first panel will 
tell us what small businesses and the federal government are 
doing to help those with disabilities lead productive and self-
fulfilling lives through employment and ownership of small 
businesses.
    We welcome here today the Assistant Secretary of Labor for 
Disability Employment Policy, Roy Grizzard--is it Grizzard or 
Grizzard?
    Mr. Grizzard. Grizzard.
    Chairman Manzullo. Grizzard? Is that the Mississippi 
accent.
    Mr. Grizzard. I don't know, but that's what it has been for 
us in Virginia for a long time.
    Chairman Manzullo. Grizzard? All right, it is your name. 
You can call it Jones if you like. The assistant secretary will 
tell us what the federal government is doing to assist those 
with disabilities. We also have the owners of three small 
businesses who will tell us of the contribution to help those 
with disabilities take their rightful place in the workshop.
    Panel 2 will examine the benefits to the nation and our 
local communities for encouraging telecommuting and the special 
benefits that telecommuting provides individuals with 
disabilities. Congressman Udall of Colorado, a valued colleague 
and member of this Committee, has introduced H.R. 1035.
    The bill would direct the Small Business Administration to 
conduct a pilot program to raise awareness about telecommuting 
among small business employers and encourage such employers to 
offer telecommuting options to employees.
    The hearing will provide an opportunity to discuss the 
provisions of this bill. I am going to turn now to our good 
friend, Jim Langevin, who actually inspired this hearing to 
give an opening statement for the minority. Jim, go ahead.
    [Mr. Manzullo's statement may be found in the appendix.]
    Mr. Udall. Thank you, Mr. Chairman, and I personally want 
to thank you for allowing us the opportunity to highlight some 
of the successes that have been achieved in the business 
community when the business community has reached out and 
employed people with disabilities.
    Though, I have a prepared statement that I am going to read 
in just a second, this is just an exciting day for me 
personally. I hope it is an exciting day for everyone; 
particularly, the business community because I think that this 
hearing will highlight how we will be able to tap into a 
previously untapped pool of resources that the business 
community can employ and help to get businesses to grow and 
succeed.
    With that, Mr. Chairman, I would, again, like to thank you 
and welcome my fellow Rhode Islander, first of all, Sandy 
Lupovitz of RIBI Security. Also, a personal friend of mine, 
former congressman, Tony Coelho, Janet Fiore of the Sierra 
Group, Inc., and Phil Kosak of Carolina Snack Foods.
    Of course, again, I want to thank you Mr. Chairman and 
ranking member, Velazquez and your staffs for all your time and 
assistance in scheduling today's hearings and recognizing small 
businesses that employ and train people with disabilities.
    Small businesses make up a significant portion of our 
economy. The estimated 25 million small businesses in this 
nation bring new and innovative services and products to the 
marketplace and provide business ownership opportunities to 
diverse and traditionally under represented groups.
    According to statistics provided by the Small Business 
Administration, small firms create two of every three jobs in 
America. In fact, small businesses employ 54 percent of the 
national work force; and the men and women who own small 
business represent over 99 percent of all employers.
    As such, small businesses offer a wealth of opportunities 
for all workers. I strongly believe that people with 
disabilities are one of the greatest untapped resources in this 
country. Yet, the unemployment rate in the disabilities 
community hovers at a staggering 70 percent.
    Recent statistics indicate that 20 percent of all Americans 
have some form of a disability. Employing these individuals is 
a mutually beneficial business solution that should be 
considered by the small business community which remains the 
most rapidly expanding sector of economy; and the fastest and 
steadiest provider of new jobs.
    According to the most recent statistics by the U.S. Census 
Bureau, there are over 10 million Americans of working age 
nationwide with disabilities who are unemployed. In a recent 
survey by the National Organization on Disability, over 81 
percent of people with disabilities stated that they wanted an 
opportunity to work.
    Statistics on the President's Committee of People with 
Disabilities demonstrate that people with disabilities have 
impressive records of attendance and longevity in the work 
place. In 1997 the president's Committee also stated that an 
average cost of job accommodation with a person with 
disabilities was a mere $200.
    Further, for every dollar an employer spends on a 
disability-related job accommodation, the company saves $34 in 
the form of worker's compensation, training new employees, and 
increased productivity and other savings.
    There are many barriers to employment for people with 
disabilities; mainly, around stereotyping--including fear, 
pity, ignorance, and focusing on what people with disabilities 
cannot do. But these barriers to employment for people with 
disabilities can and should be overcome leading to an outcome 
that benefits employers and the disabled individual alike.
    Employing people with disabilities is not a charity issue. 
It's a business issue. Small businesses are looking for 
quality, capable workers who have skills to offer and ensure 
their profitability. Individuals with disabilities, when given 
the opportunity, clearly meet these criteria. Anindividual who 
cherishes an opportunity to add value to the company will result in the 
productive relationship for both the individual and the business.
    I hope that today's hearing will act as a catalyst to bring 
people together to drive this nation's economy into the 21st 
Century. The witnesses testifying before the Committee will 
provide critical evidence that employing people with 
disabilities is a financially and emotionally awarding 
experience, and their stories should serve as a role model for 
others to emulate.
    The successful experiences can help mitigate the 
misunderstanding and the risks that others fear that they will 
incur when they begin to open their office and their factory 
doors to people with disabilities.
    Small businesses that have not considered the prospect of 
hiring people with disabilities lose access to the 
extraordinary talent pool housed among these individuals. As a 
result, our nation misses out on all that these individuals can 
contribute to our economy.
    Mr. Chairman, I want to thank all the witnesses for their 
insight and participation. Again, I want to thank you, Mr. 
Chairman and Ranking Member Velazquez, for your leadership in 
scheduling today's hearing. Thank you very much.
    [Mr. Udall's statement may be found in the appendix.]
    Chairman Manzullo. Thank you, Jim, for your leadership. I 
know I speak on behalf of the entire House of Representatives, 
Congressman, that we look to you for, not only leadership in 
this area, but you have already inspired us to become better 
legislators. I just want to say a personal thank you for your 
testimony and your witness.
    Mr. Udall. Thank you, Mr. Chairman.
    Chairman Manzullo. Our first witness is Dr. Roy Grizzard, 
Assistant Secretary, Office of Disability Employment Policy, 
U.S. Department of Labor. We have a clock here that when the 
green is on, that's fine. When it turns it yellow--Tony, you 
know the rules. You have been here before.
    When it turns yellow, that means you have one minute left. 
When it turns red, that means that I get excited here. We 
welcome your testimony. As to all the witnesses, your entire 
testimony that you have submitted will be a part of the 
official record. I am going to leave the record open for two 
weeks.
    Anybody who wants to submit any other testimony--keep it to 
two pages or less, typewritten. Don't make it 3 point type. We 
will keep it open because I am interested in hearing the 
comments from others who would also like to be a part of this 
hearing.
    Mr. Secretary, we look forward to your testimony.

 STATEMENT OF W. ROY GRIZZARD, ASSISTANT SECRETARY, OFFICE OF 
     DISABILITY EMPLOYMENT POLICY, U.S. DEPARTMENT OF LABOR

    Mr. Grizzard. Thank you very much. I don't see the light 
over here. As a result of my RP, I've asked Tony to punch me at 
the proper time.
    Chairman Manzullo. Mr. Grizzard, could you pull the mike 
closer to your mouth there? Thank you.
    Mr. Grizzard. Thank you Chairman Manzullo, and members of 
the Committee, for the opportunity to testify before you this 
morning. I am pleased to have this opportunity to highlight the 
important initiatives that are underway at the U.S. Department 
of Labor to help ensure that Americans with disabilities have 
access to the employment opportunities that best use their 
tremendous talents and abilities.
    Small business holds great promise as a path to employment, 
business ownership and entrepreneurship for people with 
disabilities. So I would also like to draw attention to some 
untapped resources that are available to small businesses so 
that they may have the tools that they need to create 
employment opportunity.
    I'm honored to be here today as the first assistant 
secretary of the Office of Disability Employment Policy, as we 
refer to it ODEP, within the Department of Labor. ODEP was 
established in January of 2001. Our mission is to provide 
national leadership and policy development for increasing 
employment opportunities, and eliminating barriers to 
employment for adults and youth with disabilities.
    This unique new agency provides an incredible opportunity 
for fresh starts on an issue of critical importance to people 
with disabilities and our national economy. ODEP's mission is 
to conduct policy, research and analysis, and implement a 
variety of initiatives that will facilitate policy development 
and recommendations to remove barriers to the employment of 
people with disabilities.
    The office also provides technical assistance, promotes the 
development and utilization of successful employment practices, 
and provides outreach, education, and constituent information. 
ODEP works with both internal and external customers, including 
federal and state agencies, employers, people with 
disabilities, and family members.
    With the strong support of President George W. Bush and 
Secretary of Labor Elaine L. Chao, ODEP will play a strong 
leadership role in implementing the employment-related 
provisions of the New Freedom Initiative announced by President 
Bush in one of the first executive actions after taking office.
    Our task is critical to afford people with disabilities the 
same opportunity for meaningful, competitive employment as 
those without disabilities; and through employment, enable them 
to fully participate as members of our communities.
    According to the 2000 Census, the number of Americans with 
disabilities is at least 49 million, making them one of the 
largest minority groups in the country. In spite of advances in 
attitudes and understanding, many still view people with 
disabilities incapable of being productive employees.
    However, the last two decades have provided many new ideas 
and successful strategies for creating the pathways into 
employment. I strongly believe--let me emphasize that--I 
strongly believe that small business and entrepreneurship can 
significantly enhance results for people with disabilities, 
including young people transitioning from school to work.
    Additionally, there are many success stories across the 
country of people with full range of disabilities who have 
successfully demonstrated their ability to contribute in small 
business and as owners of small businesses. It is critical that 
we begin to publicize their stories and those of other 
businesses that have employees with disabilities so that small 
business owners who have not yet included people with 
disabilities in their workforce are aware of their potential 
contributions.
    Although ODEP is less than two years old, it already has 
several important national initiatives underway that may assist 
people with disabilities in becoming small business owners or 
becoming gainfully employed in a small business.
    These initiatives include an interagency disability web 
site and information referral services that provide information 
for employers on job accommodations and employment supports; 
the Business Leadership Network and the Small Business Self-
Employment Services, which provide information and referral for 
people with disabilities on small business ownership and self-
employmentopportunities.
    ODEP will maximize the use of its resources and develop 
employment policies that will facilitate the creation of real 
jobs, real wages and real choices for people with disabilities. 
Private agencies and governments, through the Workforce 
Investment Act of 1998, encourage people with disabilities to 
consider entrepreneurship as a career option and to provide the 
technical assistance they need. WIA reemphasizes self-
employment and small business ownership as a legitimate 
employment outcome for vocational rehabilitation clients.
    As you may know, October is Disability Employment Awareness 
month. During October, ODEP looks forward to supporting the 
efforts of President Bush, Secretary Chao and the entire 
administration in enhancing employment opportunities for people 
with disabilities.
    Mr. Chairman, my staff and I look forward to working 
collaboratively with you, the Committee and other parties, both 
public and private, to make this a reality. I will be pleased 
to respond to any questions you may have. Thank you for this 
opportunity.
    [Mr. Grizzard's statement may be found in the appendix.]
    Chairman Manzullo. Thank you, Mr. Secretary.
    Our next witness is former congressman, Tony Coelho. Tony, 
you didn't get your testimony in, in time. You didn't follow 
the rules.
    Mr. Coelho. I am sorry, Mr. Chairman.
    Chairman Manzullo. So what are you going to do? Are you 
going to wing it.
    Mr. Coelho. I am just going to wing it like I always have.
    Chairman Manzullo. Is that what it is?
    Mr. Coelho. I wouldn't know how to prepare testimony. I 
don't have staff.
    Chairman Manzullo. We look forward to your winging. 
Proceed.
    Mr. Coelho. Thank you, Mr. Chairman.
    Chairman Manzullo. We appreciate your coming and look 
forward to your testimony.

                    STATEMENT OF TONY COELHO

    Mr. Coelho. It is an honor to be here today, and I 
appreciate very much your holding these hearings. I want to 
say, Mr. Chairman, that I am quite aware that, even though I'm 
here just as an individual, I am very involved in the Epilepsy 
Foundation because of my own personal epilepsy, and I 
appreciate what you have done to support the increasing of 
funds for people with epilepsy. I appreciate that very much.
    I also appreciate what you're doing in regard to assistive 
technology in your home area because in order to employ people 
with disabilities, we need that assistive technology, and 
you've done some good things back in your home area. I 
appreciate it very much.
    I am here, Mr. Chairman, because of the invitation of my 
good friend, the Congressman from Rhode Island. He and I have 
been friends for many, many years when thinking of running for 
Congress was just a dream, as opposed to running for Congress. 
I appreciate Jim's invitation, and maybe insistence, that I 
come.
    I have not testified before the Congress and any Committee 
in any capacity for the last 12 years. The last time I 
testified was when I was trying to get the ADA passed. So I am 
here because of my concern about employing people with 
disabilities. I happen to think that is the important thing 
that I could do or that anybody could do because of the 
difference that it would make.
    I might say, just in passing, before I go into my comments, 
that I find it intriguing to sit at the table here and look up 
at the podium and see the name Udall several times. I worked 
and served with their fathers, so it tells me my age as I go 
through here.
    Mr. Chairman, I appreciate the comments of the Secretary. I 
think Roy is going to try to make a difference there. 
Hopefully, he can as the first assistant secretary, this is 
really a critical role. And finally, we have somebody at the 
table with their only purpose as serving people with 
disabilities. So I am enthused that he wants to make a 
difference, and I think that he can if he wants to.
    As Jim said in his comments, small businesses employ about 
52 percent of our work force. I think it is important to 
understand what that means. It is not just the major employers. 
It is small businesses who employ a majority of the people who 
work. People with disabilities, myself included, we want to 
work.
    I used to say to President Clinton, and I've said to 
President Bush, that there is only one group in America that I 
know of--only one group in America that I know of that wants to 
pay taxes; and that's those of us with disabilities. And the 
reason is, is that we want a job. We want to work, and we will 
be good employees. So for an employer to hire somebody with a 
disability it makes all the sense in the world.
    We not only will work, but we will be there on time. We 
will be loyal. We will end up working for these employers for a 
long period of time so that you won't have all the transitions 
that generally take place. For small businesses, that is 
critical--the retraining costs are impossible to maintain, as 
my friend, Phil Kosak, will probably describe a bit later.
    I think that it is important for us to understand what this 
Committee could do to help enhance the cause to help people 
with disabilities to be hired. I could tell you story after 
story of people who, by getting a job, it's made a difference. 
I work with a group called Bender Consulting in Pennsylvania 
that actually trains people with disabilities in how to get a 
job, then places them in a job.
    I am aware of two young people that were graduated out of 
college with degrees in technology who could not get work. The 
young lady had epilepsy. She had cerebral palsy. She had a 
speech impediment. She had difficulty walking, and she was 
discriminated against continuously in getting a job.
    A young man who was sight-impaired and couldn't get a job. 
They both were placed by the Bender Group, starting off at jobs 
at $80,000 plus. They were discriminated against until somebody 
said let me help you. They were put in these jobs. The next 
time I saw them was at a picnic, and the young lady came up to 
me and she thanked me for the things that we had done for them 
in the President's Committee.
    She said I also want you to know that we're dating--these 
two individuals were dating. She said I'm pregnant. I said, oh, 
my God, when are you getting married. She said is that really 
that important nowadays. I realized I was 59 years old and out 
of touch. Then about 15 minutes later, she asked me to be best 
man at their wedding. They got married right on the spot at 
this picnic. [Laughter.]
    The interesting thing about this was the fact that here 
were two young people who couldn't get jobs. They were trained 
and employed through Bender Consulting Services. They have a 
home. They have jobs and they are paying taxes. They now have a 
little baby for whom I am the personal godfather. Logan was 
born in January of this year and is perfectly normal. They have 
helped to take care of their baby and now we have very 
productive and proud citizens.
    So I hope that this Subcommittee understands the tremendous 
opportunity it has to make a difference in millions and 
millions of people's lives.
    I would just like to close with one comment. That is, Mr. 
Chairman, some people say that by hiring people with 
disabilities that you would increase worker's compensation and 
other costs. The Chamber of Commerce and the National 
Association of Manufacturers did a study that shows that was 
not the case. There are still a lot of questions on that.
    I would urge that this Committee have somebody like the 
Library of Congress, or somebody--the Department of Labor--
somebody do a study to determine if that is or is not correct 
because we need to eliminate that myth. Hiring people with 
disabilities should not increase the costs to anybody. I think 
it makes great sense to do that. And I appreciate, again, Mr. 
Chairman, your willingness to call this hearing.
    Chairman Manzullo. Our next witness is Janet Fiore. That 
was the last name of my roommate in college.
    Ms. Fiore. Is that right.
    Chairman Manzullo. He is from Los Angeles.
    Ms. Fiore. My husband's family is from the northern New 
Jersey area, Chairman.
    Chairman Manzullo. That's real close. It's a suburb of Los 
Angeles. That's correct. Janet is the CEO of The Sierra Group, 
Inc. This is distinct from the Sierra Club, is that correct?
    Ms. Fiore. Correct. That's very correct.
    Chairman Manzullo. We look forward to your testimony.
    Ms. Fiore. Thank you.

STATEMENT OF JANET FIORE, CEO, THE SIERRA GROUP, INC., THE KING 
                   OF PRUSSIA MEDICAL CENTER

    Ms. Fiore. If it's a job done from a desk, we can 
accommodate it. In order for a person with a disability to go 
to work, they need to know how to work; and in order for a 
business to accommodate them, that business needs to know how 
to accommodate them.
    Ladies and gentlemen of Congress, it's my distinct pleasure 
to be here before you today and to thank you for the laws and 
funding that Congress has put into place to date, which has 
allowed employment dreams to be a reality for individuals with 
disabilities.
    The reauthorization of the Rehab Act in 1992, serving those 
with most significant disabilities first, was the start for my 
business, the Sierra Group--a 10-person, certified female-owned 
disability and engineering consultancy. At the Sierra Group we 
stand for reversing the rate of employment for people with 
disabilities.
    We do this in two ways. We help people, and we help 
businesses. In order for people with disabilities to go to 
work, they need the core skills to do the job. Technology can 
often act as the bridge to overcome their disabling conditions. 
In order for businesses to hire someone, they need some help in 
making the work site accessible for all of this adaptive 
technology, as well as for any physical barriers that the 
individual may happen to have.
    We work to tie in existing governmental resources to create 
win/win employment relationships. Sierra engineered a training 
curriculum, the Workplace Technology Training Academy. We 
combined the expertise of a Center for Independent Living, 
along with the Public Vocational Rehabilitation Program in 
Pennsylvania. We added our high-touch, high-tech approach to 
the rehab engineering. What we did was create successful 
employment outcomes with people with severe disabilities.
    I would like for you to meet Carlos Concepcion (phonetic). 
Carlos is in the back of the room, and we have a video showing 
what has happened at the Academy.
    Chairman Manzullo. Could someone hit the lights over there, 
please.
    [Video shown.]
    Ms. Fiore. That's the end of the tape.
    Ms. Fiore. In order to place, or accommodate a worker with 
a disability, the business needs some assistance, also. We 
address the common fears associated with hiring an individual 
who is disabled, and we teach businesses what is actually 
possible through technology.
    We also identify for the business; particularly, for the 
small business what funding resources exist to pay for these 
accommodations. Very recently, Sierra Group assisted a small 
law firm in Philadelphia who hired a woman with mobility 
limits. There was no out-of-pocket expense whatsoever to the 
business in order to place this individual.
    The technology was paid for by the state Public Vocational 
Rehabilitation Program, and the training was provided through 
federal training dollars. What the business got in the end was 
a very competent individual who does a good job. They had no 
out-of-pocket expense and the accommodation that allowed her to 
overcome her difficulty going from office location to office 
location was the installation of a remote network that the 
entire company now benefits from.
    Chairman Manzullo. How are you doing on time. I've got you 
at about seven minutes. Are you almost done there?
    Ms. Fiore. Yes--30 seconds.
    Chairman Manzullo. All right, go ahead.
    Ms. Fiore. Realizing that other business owners might fear 
the unknown when they first hire a person with a disability, 
Sierra conducts seminars teaching what is possible, how to 
integrate the assistive technology onto the mainstream platform 
and how to get funding to do that.
    Now how does all of this affect the economy? Well, if just 
10 percent of people with disabilities collecting supplemental 
security income benefits would get a job over the next 30 years 
by working rather than collecting income, society would save 
$250 billion.
    In our 10-year history we have helped 2000 individuals with 
severe disabilities, and those who got hurt at work. If we can 
have additional funding to teach people with disabilities to 
work, and teach business how to accommodate them, imagine the 
cumulative benefit that society will then realize. Thank you 
very much.
    [Ms. Fiore's statement may be found in the appendix.]
    Chairman Manzullo. Thank you very much, also. I don't have 
the testimony for you, Mr. Kosak? Did you turn yours in?
    Mr. Kosak. I did. It is lost in cyber space. It's the story 
of my life.
    Chairman Manzullo. Lost in technology? You probably gave 
yours to Congressman Coelho, is that what happened? We look 
forward to your testimony. Go ahead.

    STATEMENT OF PHIL KOSAK, PRESIDENT, CAROLINA FINE SNACKS

    Mr. Kosak. Thank you. I appreciate it. Thanks for the 
opportunity. My name is Phil Kosak, and I'm the owner of 
Carolina Fine Snacks, a small snack food manufacturing company 
in Greensboro, North Carolina, which I founded in 1982.
    Carolina Fine is one of a handful of snack food 
manufacturers left in the United States having survived in an 
industry that saw over 90 percent of the manufacturers driven 
out of business in the 1990s. I attribute our survival and our 
success, in large part, to our employees. That's not unique to 
any good, successful business story. What makes my story a bit 
uncommon is that since 1988, over half of my staff have been 
persons with disabilities.
    A more common story with small business is how employees 
drive the company out of business, and that, until 1988, was 
the road I was heading down. If someone had told me that the 
most difficult challenge I would face in starting and running a 
business would be finding good employees, I would have never 
believed it.
    It was, in fact, one obstacle that bucketed my knees every 
day and made it seem like each day was going to be my last. In 
'88 with two shifts running, I was certain I was going to have 
to close the business. We were experiencing 80 percent turnover 
every six months, ran at about 60 percent efficiency, had about 
15 percent tardiness, and 20 percent absenteeism. That's a good 
day.
    In 1987, for example, with 26 employees, we filed over 200 
W-2 forms. This is not about money. It is not about work 
environment. Carolina Fine Snacks was paying higher than the 
prevailing wage in the area, and our work environment was easy, 
friendly and convenient.
    The labor pool available for small business is profoundly 
inadequate. This is particularly true for small manufacturers. 
We are at the bottom of the food chain. By a stroke of luck, in 
1988, we were asked to make the pork skins for the GOP 
convention. They invited me----
    [Laughter.]
    That publicity introduced us to vocational rehabilitation, 
who invited me--do you remember that? Does that come off my 
time? They invited me to participate in a job fair to interview 
candidates for employment who happened to be persons with 
disabilities.
    I interviewed six people that day. Six people who had my 
undivided attention. Instead of being asked questions that 
revolved around break time, pay frequency, raises, and time 
off, I was fielding questions about our company--what we did 
and how we might help.
    I was taken aback by an interview of one person, David, who 
spoke with great enthusiasm about his third-shift job cleaning 
bathrooms for a hotel, and his dismay that his job was being 
eliminated. David was legally blind, severely obese and had 
cognitive disabilities. I hired him that day on the spot, 
thinking what do I have to lose. Little did I know what I was 
about to gain.
    David approached work at Carolina Fine with total 
ownership. He worked with enthusiasm, pride and efficiency. He 
couldn't learn enough. He wanted to help anywhere he could. He 
laughed. He joked. He was always at work on time, anxious and 
ready to go. He totally confused my crew. [Laughter.]
    In the weeks and the months that followed, David's 
enthusiasm didn't waiver. Every time someone quit, I just 
called VR and hired another person. Within six months, over 
half my staff were persons with disabilities, and the revolving 
door closed. Plant efficiency climbed to 98 percent the 
following six months, and for the first time since I started my 
business, I was able to focus on my business. Now the point of 
my story is this, Carolina Fine Snacks is alive and well today, 
growing at 25 percent a year, because I was fortunate enough to 
discover a workforce interested in being a part of the American 
promise.
    My decision to hire persons with disabilities was a sound 
business decision. There is a perfect marriage waiting to take 
place between small businesses desperately seeking qualified 
employees, and a highly qualified workforce chomping at the bit 
to become part of the American dream that happens to be the 
most disenfranchised population in this country--the disabled.
    The government has played a critical role in laying the 
foundation to bridge the gap between the two, but there is much 
work still needed to be done to bring it together. Much of the 
solutions are right in front of us, by supporting programs 
already in place. The Javis-Wagner-O'Day program, for example, 
employs 40,000 people with severe disabilities and community 
rehabilitation programs that are segways to employment 
opportunities throughout communities nationwide.
    With a little bit of enthusiasm and support by Congress 
that number could easily be 400,000. This a no-brainer. It 
costs no money, and it will save taxpayers hundreds of millions 
of dollars. The Small Business Administration should be 
partnering with agencies like NISH and Vocational 
Rehabilitation to facilitate employment. These are great 
organizations that hold the key to transitioning persons with 
disabilities into meaningful employment in the community.
    In closing, I believe there is tremendous opportunity for 
government and small business to work together to provide real 
employment opportunities for person with disabilities. All the 
pieces to the puzzle are out there and it's time for us to 
start putting it together. Thank you.
    Chairman Manzullo. Thank you very much. That is pretty 
compelling testimony. Our next witness is Sanford Lupovitz, 
correct?
    Mr. Lupovitz. That's correct.
    Chairman Manzullo. With the Rhode Island Bureau of 
Investigation, Ltd, and Congressman Langevin, is he your 
constituent?
    Mr. Langevin. He is, Mr. Chairman.
    Chairman Manzullo. Very good.
    Mr. Langevin. We are very proud to have Mr. Lupovitz here 
today.
    Chairman Manzullo. Please, proceed.

    STATEMENT OF SANFORD LUPOVITZ, PRESIDENT, RIBI SECURITY

    Mr. Lupovitz. Chairman Manzullo, members of the Committee, 
ladies and gentleman--just a little bit about our company. We 
are now about 200 employees. We serve 40 or 50 sites. We are a 
security officer agency. We are licensed in Rhode Island and 
Massachusetts. We do a full range of security--consultation, 
investigation--any phase of it.
    The clientele that we have include manufacturing, Deep 
Water port, parking facility at the airport, power plants, 
schools, construction, hotels, hospitals--the full gamut.
    What is important to point out is that we are not a law 
enforcement agency, and because of that misperception, we find 
that a lot of agencies and even applicants stay away--do I have 
to carry a gun and those kinds of questions hit us. The answer 
is no.
    We are there to deter violations, to enforce safety rules, 
to observe, to call the agencies who will enforce--police, 
fire, ambulance and so forth; and to keep in touch--the guard 
on duty--with our field people and our supervisors.
    Many of the applicants who come to us are not professional. 
They are not trained. They primarily come to us because it's an 
industry that's recognized as one to go to if you need a job to 
fill a gap. You become a guard and you collect your check at 
the end of the week and that's it.
    There is another significant group of applicants who are 
turning to security, which had increased in number over the 
years, people who are seriously looking for long term 
employment. Included in this alternative group are the 
individuals with disabilities. We find that they will come to 
us, either on their own or referred through agencies. In the 
hiring process for this group we've developed a procedure to 
evaluate whether or not the applicant with a disability will, 
in fact, be someone who can work for us.
    What we do is interview in depth. We look at the kind of 
assignment we want to send them to. We set up field support and 
follow up.
    What I want to do is take two minutes--half a minute--to 
tell you about a few of theexamples that we have had some 
success with. Mitchell--in 1985 he came to us through an agency. He had 
one arm; was a forester. Also, had a language limitation and needed a 
job.
    At the same time, we had a client who asked us what we 
could do about stopping vandalism in their parking lot. We sent 
Mitchell. He locked it up. There was no more vandalism. The guy 
was a tremendous success. He is still with us. He is now 
working in a fabulous insurance building, and he is significant 
part of the security there.
    John, who was a stroke victim, came to us; and we were able 
to place him at a parking lot facility. He did not lose his 
speaking capabilities and he could move his arms perfectly. He 
sits behind the counter and collects the parking fees from 
customers coming through.
    Mike, who was a computer top pro, lost his job because of 
an illness, and I'm not sure I can recall which one it was, 
came to us. We sent him to a rubbish collection company, which 
had hundreds of vehicles--you know the metal boxes that you see 
all over the place, and so forth--they had no way of keeping 
track of their equipment.
    He, with his background, set up a system which enabled them 
to keep track of the trucks, the boxes, the drivers--who came 
in and who went out and so forth. We got the phone call ``don't 
you even think about transferring this guy to another site. We 
need him right here.''
    Joe, who had been depressed, came to us in need of a job. 
We had to do a lot of work with this guy. The shifts were 
wrong. The job was wrong. The time was wrong. We got his case 
worker. We sat down and we worked things out. We gave him a lot 
of support. He is now succeeding as a gate guard at a 
manufacturing plant.
    So. We don't represent ourselves as any kind of an expert 
agency, but what we have done is make the commitment to try to 
employ people with disabilities because we think it's a 
responsibility that we have.
    One of the things I would like to point out, and ask the 
Committee to consider, is what to do about work comp claims of 
prior injuries. We've been socked a couple of times with this 
kind of a situation. If it were at all possible to study this, 
I think it's one of the things that prevent employers from 
looking at the possibility of hiring people with disabilities.
    I see I have to stop. There is a lot more I would like to 
add, but it's in the printed testimony. I would like to thank 
the Committee for inviting us. Congressman Langevin for having 
us here. It is an honor to be a part of this hearing. We, of 
course, think that the security industry, given its growth and 
the demand for new people and the training that's needed and so 
forth, has great potential for hiring people with disabilities. 
We would like to contribute to that. Thank you.
    [Mr. Lupovitz's statement may be found in the appendix.]
    Chairman Manzullo. Thank you for your testimony. I would be 
most interested in whoever could provide that study to which 
you referred. If it could be boiled down to a couple of pages, 
I would use the resources of our Small Business Committee to 
network that out throughout the country to the small business 
development centers and to get the word out as to these 
remarkable employees working in small businesses. Your 
testimony is extremely powerful.
    Mr. Langevin, I am going to yield my time to you. So you 
have 10 minutes. The rest have five minutes. If you go over 
that, I've got this back here, all right?
    Mr. Langevin. I will do my best to stay within the limits, 
Mr. Chairman. Thank you.
    I want to just thank all of the witnesses for testifying 
today. Your testimony was incredibly powerful. I hope this will 
continue to serve as a catalyst----
    Chairman Manzullo. Jim, if you would yield for just a 
second. If you could get one of the mikes that's over there on 
the table, and bring it--Danny, in front of it. Get it over to 
Jim so he can get a little bit closer to him.
    Mr. Langevin. See how easy that reasonable accommodation 
was? [Laughter.]
    Again, I want to thank the panel for testifying here today. 
You have encouraged me more than ever and made me more 
enthusiastic about pursuing ways in which we can open doors for 
people with disabilities to enter the workforce.
    I guess I will start with Mr. Lupovitz, if I could, and 
just ask what you would say to small businesses that feel that 
hiring a person with a disability will place too much of a 
financial burden on their business due to monetary 
accommodations that need to be made?
    Mr. Lupovitz. Our experience is it hasn't added any 
financial burden to our operation. We don't know of anything. I 
will say this, that there are programs out there that we 
probably could participate in. We find them onerous. The paper 
work, following the regulations, trying to figure out what we 
can and cannot do with the employee. That needs a lot of work.
    I'm just addressing that from a practical perspective. I 
don't know what those programs are, and I don't have the time 
to deal with them. We could use more outreach from the agencies 
in supporting us in that respect. We have a business to run--
200 people running around 24/7 and doing all kinds of things. 
We can't sit down when that big envelope comes in with a form 
and instructions and take the time to fill it out, and frankly, 
we are not interested in doing that. I'm not sure I answered 
your question, Jim.
    Mr. Langevin. Actually, you raised an interesting point. I 
just want to be clear. You're saying that of the government 
programs that are out there that businesses could take 
advantage of in training and employing people with 
disabilities, that your company has not taken advantage of 
those? You've done it without those programs.
    Mr. Lupovitz. We have done without.
    Mr. Langevin. Mr. Secretary, perhaps you can elaborate on 
that a little bit, and tell us what some of the programs are 
and how, if businesses took advantage of these programs, maybe 
doors could be opened even further.
    Mr. Grizzard. Thank you very much for asking me to weigh in 
on that particular question. I also was very impressed by the 
panel members and their exciting programs and what they are 
doing in their businesses currently. And as the last witness 
said, the truth of the matter is that most accommodations are 
less than a thousand dollars. In fact, most are in the 
neighborhood of about $200.
    We had a little laugh a moment ago with the moving of the 
microphone, but often that is just about how simple some 
accommodations can be to assist a person with a disability.
    What we want to do at ODEP is to make small businesses 
aware of those facts and how some of those accommodations can 
be made. As I listened to the other panelists, I was impressed 
by a kind of a thing that might be common to many small 
businesses.
    Our last witness said that his company had somewhere in the 
neighborhood of 200 employees. Most small businesses run 50, 
100, 150, 200 employees--I don't know this from personal 
knowledge because I've never operated a small business; but 
intuitively, I've seen them operate. And usually you have 
someone in the front office of that business, and that 
individual, almost handles the entire operation of the 
business.
    They handle accounts receivable, accounts payable. They 
handle the inventory requests. They handle shipments. They 
answer the phones--they do all these things. One other thing 
that they do is usually the HR Department. They don't have, 
sometimes, the opportunity for the level of knowledge that HR 
Departments in large corporations have to gather knowledge 
about issues related to hiring of people with disabilities.
    What we hope to do at ODEP is to provide, through web-based 
sites, such as our Job Accommodations Network and further 
outreach to the small businesses, opportunities for that one 
individual up there in the front office of that small business 
to gain knowledge about how to go about accommodations--how 
much accommodations cost; and I think most important of all is 
that their employee pool has expanded.
    And that they have an opportunity, just as the gentleman 
from Carolina that runs the snack business said, they have an 
opportunity to hire individuals who are going to give them a 
solid day's work for a solid day's pay with good benefits. That 
person is going to be loyal. They are going to be at work on 
time. They are going to be cooperative. They are going to be a 
good employee.
    So those are some of the things that we want to address. We 
want to make that technical assistance and knowledge available 
to small business because, after all, that's where the largest 
level of employment occurs in this country. I hope that in some 
way I might have answered some of your questions.
    In terms of the regulations and some of the hoops that have 
to be jumped through, I would agree with you that at times some 
of those are over burdensome. Our office, while not regulating 
anything; while not enforcing anything, would be delighted to 
work with small business to assist them to comply with some of 
these regulations. Thank you.
    Mr. Langevin. Mr. Secretary, could you just target a few or 
identify a couple of programs that might be available to a 
business that is looking to hire individuals with 
disabilities--either tax incentives or other specific programs 
that they could take advantage of.
    Mr. Grizzard. Yes, there are. There are first, federal tax 
advantages that provide for certain levels of tax breaks in 
terms of accommodations that are made, and extend usually over 
a period, I believe, of several years. So that's available. 
That knowledge we can make available to them.
    We will work with the folks over at Tax to get that type of 
information available to small business. Then there are many 
states that mirror the federal tax exemptions for corporate 
taxes. While I was in the Commonwealth of Virginia, Delegate 
John Jack Reed sponsored a piece of legislation that almost 
mirrored some of the federal tax incentives. I tried to work 
very hard with that particular legislature to bring that 
particular bill to the governor's desk. I am proud to report 
that it went there unanimously in both houses and was signed by 
the Governor.
    There are many states--I know that we used Maryland as a 
reference point as the one that was developed in the 
Commonwealth of Virginia. So there are many states that also do 
this. So that would be something that state legislatures might 
want to consider, but certainly we would provide this type of 
information to small businesses so that they can become aware 
of that and take those tax advantages--whether it is at the 
federal or the state level. Thank you.
    Mr. Langevin. Thank you, Mr. Secretary. Mr. Coelho, do you 
have any comment on the government programs that businesses 
could take advantage of?
    Mr. Coelho. Thank you, Jim. You have two seconds--one 
second. Let me try to answer very quickly.
    One of the things that I would do is to get the Small 
Business Administration to get aggressively involved in trying 
to educate small businesses about the advantage of hiring 
people with disabilities. The time I was in the Congress, and 
the time I served as the chairman of the President's Committee, 
we never succeeded in doing that. I'll be very blunt. The last 
administration didn't get there.
    The Small Business Administration never got its act 
together in regards to doing this. I would hope that Roy, with 
his new position, would get the SBA to understand that they can 
provide a huge service to their businesses if they did this. I 
would hope that this Committee would encourage them to do that, 
and to question them why they're not doing it.
    They reach out to a lot of minorities, but do not reach out 
to this particular group. I think that's a mistake--a huge 
mistake, and something that their clientele, the small 
businesses all over this country could benefit if they did. I 
think that the questions about regulations and all these things 
are legit.
    And I think if the SBA got involved in that, they could 
identify some of those, and with the Department of Labor, they 
could eliminate some of those regulations. But you have got to 
get the SBA engaged. It can't all be the Department of Labor.
    Chairman Manzullo. Thank you, Mr. Langevin. Mr. Issa, do 
you have a question?
    Mr. Issa. Thank you, Mr. Chairman. Really just two 
questions. I do have the good fortune of having been one of 
those people that once had that person who did a payables, 
receivables, and wrote in the UPS book. So I think I understand 
that. We have also, our company, had opportunity and had good 
employees who, in fact, came in with disabilities.
    My challenge, really, on this legislation, which I favor in 
principle is twofold. One is the SBA, the appropriate place to 
put this pilot.
    In other words, I appreciate that small business is the 
area that needs the education, but, in fact, is this enough 
money, even as a pilot, and is the Small Business 
Administration--perhaps, Mr. Coelho, you could help us in 
looking at the history of failure and say, okay, is this the 
right organization that is going to step up to the plate and do 
a good job of really making more people aware of the 
requirement to be open and how one can use skills that are 
right now not being used.
    Then I will just throw in the second part. The second part 
is, if this is not enough money, and I believe that very 
quickly we are going to realize, whether this is the right 
organization or not, it's way too little money.
    If there is no new money, should we consider moving 
enforcement dollars, which are always considered sanguisant 
(phonetic), into education dollars, if what we have is, a lot 
less people who are knowingly not employing the handicapped 
than we have people who don't understand the opportunity.
    Obviously, the goal is to get as many people with 
disabilities to have opportunities. That's why I asked both 
questions together, Mr. Coelho.
    Mr. Coelho. Thank you very much, Congressman. I would start 
off by saying, yes, I think the Small Business Administration 
is the right place. The reason is because they have offices all 
over this country, and they have personnel all over this 
country. So they are there. It's a tremendous vehicle to put 
out the word to be of help; to be of assistance; if they would 
take on the responsibility.
    I think it's critically important to educate them, and this 
Committee could do that in different ways, to educate them that 
they have an obligation and a responsibility to get it done. So 
I do think it's the right vehicle.
    In regard to the amount of money, it's never enough money, 
as you well know; but I think that the most important thing is 
I always looked at things as drip-drip. I never worried if it 
was enough money. I always thought it was important to get 
something started, and to create an example--create successes. 
If you can do that, then the rest will take care of itself.
    I would say to you that if it starts proving itself, you 
will be the one that will be advocating that more money go 
there. But if it doesn't prove itself, you should eliminate it.
    I remember when I took the chairman's job for the 
President's Committee, I told President Clinton that if that 
Committee couldn't do its work, I wanted it eliminated. I would 
advocate it, but if it did its work, then I wanted that job 
promoted to be an assistant secretary job. It was important to 
have that person at the table to get things done.
    I think we were successful and it became an assistant 
secretary's job. But I stress to you, and I stress to you over 
and over again, is that we can't accomplish this job of 
educating small businesses, through the Department of Labor 
alone. They have to have help. That isn't their job. They need 
help and the SBA is there and it should do this.
    Mr. Issa. And the second part of the questions for anyone 
who wants to take that on.
    Ms. Fiore. May I?
    Mr. Issa. Please.
    Ms. Fiore. I believe that enforcement is a no-win and 
education can be a win-win solution. We find that in working 
with folks with multiple, severe disabilities the answer is not 
always obvious. It sometimes does take a certain degree of 
education as to how something is possible.
    If there was more education for small business in how to 
access the public VR system. How to find someone that will 
clearly identify here are all the forms and all of the tax 
benefits available to a company like one of the other witnesses 
here today. They need that education because otherwise it is 
too cumbersome.
    I think if we can educate, out of enforcement dollars, then 
more and more people will come into the workforce; and soon 
enforcement would be less of an issue.
    Mr. Issa. Thank you.
    Mr. Grizzard. Yes, I would just like to add one 
observation. We do have a telework, telecommuting, if you will, 
grant that we will be partnering with SBA as well as Vocational 
Rehabilitation on that.
    And then, secondly, I was confirmed on the 26th of July. So 
you can imagine that I have had a lot of people come into my 
office over the last month and a half; but I have spoken to the 
administrator of the SBA, Mr. Barreto, and we have both pledged 
to each other our cooperation in an attempt to synergize the 
efforts between what we are doing and what SBA is doing so at 
the end of the day it will help people with disabilities to 
become employed.
    So I agree with Mr. Coelho, and we are working to that end 
with the SBA.
    Mr. Issa. Thank you very much. Thank you, Mr. Chairman, and 
I want to thank Mr. Udall for proposing this legislation. I 
look forward to supporting it.
    Chairman Manzullo. Congresswoman Christian-Christensen?
    Ms. Christian-Christensen. Thank you, Mr. Chairman. I want 
to commend you for the hearing, and my colleagues--Mr. Udall 
and Mr. Langevin for their role and their leadership in this 
area.
    I want to take the opportunity to welcome everyone on the 
panel, but also to recognize someone who is in the audience, 
Mr. Bobby Coward, from the Washington, D.C. area. He is the 
chair and spokesperson for the Capital Area Americans for 
Disabled for Attending Programs. He is an advocate for the 
disabled. Bobby's in the back there.
    I guess I would ask my first question to Assistant 
Secretary Grizzard. You talked about some relationships that 
DOL has with SBA, or is establishing with SBA, but I was 
wondering is there an established interdepartmental partnership 
that exists to help individuals with disabilities? We know that 
individual agencies have programs to assist the disabled to 
become employed.
    But it seems to me that it would be important that the 
federal agencies communicate with each other on a more 
systematic way--the Department of Education, Small Business, 
Social Security Administration, Department of Labor. Is there 
any such existing partnership?
    Mr. Grizzard. Congresswoman, there is no formal 
organization as such. If you look at the wording of the New 
Freedom Initiative, though, there is a call by the President 
for cooperation among federal agencies as we work to bring 
individuals with disabilities into the community and to be able 
to live independent lives.
    So we work very closely with the major agencies that are 
concerned with these types of initiatives--the Department of 
Education, the Department of Justice, Social Security 
Administration, HHS; and as we move forward, we would want to 
continue to bring synergism among the agencies as we leverage 
our ideas and our policies that ultimately will lead to the 
goal of reducing that rather dismal figure that earlier was 
referred to; and that's the 70 percent unemployment rate.
    So there isn't anything formal, but we look forward to 
continuing to work with the other federal agencies to bring 
that around.
    Ms. Christian-Christensen. As a member who represents a 
territory, we know how important it is to really have an 
established synergism between the agencies to address our 
particular problems, and I think it would be good in this area 
as well.
    Another question to the assistant secretary, do you know of 
any studies that have been done on policies that exist in our 
governmental agencies that also create barriers for 
eligibility? Have we ever looked at policies, regulations and 
so forth throughout the agencies of government that also might 
create barriers?
    Mr. Grizzard. As you can see, in that one and a half 
months, I haven't learned all the answers. I am glad Tony is 
here. I might have to ask him.
    Chairman Manzullo. If you would yield a second, Mr. 
Secretary, if you would put something in writing. We will give 
you a couple of weeks to put it into the record and send a 
letter to each member. It's a very broad question. You don't 
even have to attempt to answer it if you don't want to.
    Mr. Grizzard. I appreciate that, Mr. Chairman, because 
that's exactly what I was going to say. I wasn't born 
yesterday. So we will put something together that would address 
that because it is a broad area.
    Mr. Coelho. If I could just quickly--as Roy was saying. I 
had a little experience in this. Yes, there has been a lot of 
studies. They don't do any good. It isn't the studies that you 
really want as you want to make some agencies deliver, and they 
aren't and they haven't and they haven't cooperated.
    Having the head of SBA and Roy meet is great and I applaud 
him for trying. But that isn't going to do it. It's the people 
within SBA that have to be told that it has to be done. That's 
our problem. I mean, it's a major problem, and this high 
unemployment rate is because there is a lot of good words and a 
lot of good intentions, but there are no good results.
    Ms. Christian-Christensen. I see that my time, at least for 
this round, is up, but it sounds like that's a job for us as we 
look at the budget next year and including language that the 
interagency cooperation takes place and that there is some 
language in there that directs certain things be done in this 
regard. Thank you, Mr. Chairman.
    Chairman Manzullo. Thank you. Ms. Napolitano?
    Ms. Napolitano. Thank you, Mr. Chair. I've got several 
questions that have been rattling around in my brain as I'm 
listening to the testimony.
    First of all, I would like to know what the budget is for 
your agency, Mr. Assistant Secretary--round numbers--just 
generally, how much are we talking about?
    Mr. Grizzard. Congresswoman, I had that one right. I just 
wanted to double check. It is $47 million.
    Ms. Napolitano. That is for the whole country. So to me, 
that's a paltry sum that needs to be looked at, increased and 
fostered. I would be glad to have, maybe, an amendment to Mr. 
Udall to increase some budget language somewhere along the 
lines.
    One of the things that--and I've heard this over and over 
again. And Tony, you're right. Agencies not only don't talk to 
each other--don't communicate with each other; don't work with 
each other, but it is sometimes not enough to have the heads 
working. It is the people that are actually doing the job that 
do not concentrate on what they are being told, and generally, 
that happens in most agencies.
    Somehow you are right. We need to go in that area. But in 
order to educate the business community I would like to 
suggest, and I'm not quite sure what outreach you are doing, 
seeing as how most of the time most agencies don't have the 
kind of money to put advertisement to where it is going to do 
the most good or where it reaches the businesses. But may I 
suggest--do you have a website that our offices can tap into 
and connect?
    Secondly, that you might want to do training videos. I was 
talking to Ms. Fiore earlier about some of the videos that she 
has are excellent, but when you look at some of the people like 
Jim and people out in the audience, you say, well, gee, they 
can't get very much work done looking at them.
    We need to change perception--the public perception and the 
business perception. And the only way you are going to do it is 
by putting out, maybe on the must carry cable channels that 
most cities are required to have, that will accept free of 
charge educational videos, and would be able to reach a large 
segment of the business community within municipalities.
    I think we need to start thinking out of the box on how to 
do the outreach and change the perception of the value of 
individual with disabilities to the working community. I was 
very surprised, and very pleased, to learn that Ms. Fiore is a 
for-profit woman-owned and are doing a fabulous job in taking 
individuals who nobody wants--nobody can, looking at them, 
would even think of hiring and turning them into productive 
people who get off of social security and are functioning as 
full members of society.
    Somehow those--and it's mostly commentary because I'm tired 
of hearing employers say, well, we don't have a place for these 
kind of people. They may not know that the different agencies 
can work together and be able to provide assistance to them. Of 
course, most important to a lot of businesses are the factor of 
loyalty, on time, productivity--and once those are out of the 
way and they learn how valuable these people become, as these 
gentlemen from the different companies are saying, that they 
now may begin to have an open mind towards it.
    I would suggest that maybe we would be glad to host--you 
know, Chairman Manzullo was very helpful to us in having a 
hearing in my area, but I would be glad to open it to be able 
to bring all those folks together and begin a process of 
teaching how important this new workforce can be to any 
business. How valuable it is.
    I guess maybe I'm searching because, number one, your 
budget is too low. I mean, it is dismal, and number two, the 
perception, not only in the business community, but the 
community-at-large needs to be addressed.
    We need the cooperation of other agencies, whether it's 
Labor, Education, Health and Human Services--all of those that 
have a stake in this work group need to come together, and 
maybe you can call them together with the assistance of 
Chairman Manzullo, and begin the process of saying you're going 
to do it.
    Now does anybody want to address any of what I have stated?
    Mr. Kosak. I would like the opportunity, if I could, 
because I think--I have the opportunity to serve on a number of 
not-for-profit boards. And I travel the country and talk to 
businesses and I'm familiar with the ARC. I'm familiar with 
NISH. I am now the chairman of the board of NISH. I also serve 
on business leadership network through the Department of Labor, 
and I think I have seen a lot and learned a lot.
    One of the things that I think is understated here is the 
fact that these groups don't communicate well together. In some 
cases they not only do not communicate well together, there is 
an adversarial relationship.
    For example, the Small Business Administration--in my mind, 
the community rehabilitation programs around the country--and 
there are thousands of them in all communities--are the 
cornerstone to that training and that networking within the 
community that is going to allow businesses to understand.
    It also is going to provide that segue to step from the 
environment that is currently out there into one where small 
business equally understands the value of the employee base. 
Well, the Small Business Administration considers community 
rehabilitation programs to be adversarial in nature. They are 
competitive in nature because they are competing against one 
another for business.
    So here on the one hand you have the community 
rehabilitation associations and programs around the country 
that are a keynote in every community to helping transition 
what it is you're looking for, and the Small Business 
Administration that needs to partner and marry with them. They 
should be embracing community rehabs. These are small 
businesses, too. The only difference is their IRS statement 
period.
    If you get their IRS status out of the way, the only other 
challenge they have is that they are dealing with training and 
all of the challenges that normal businesses don't.
    I would suggest that there does need to be a meeting of the 
minds, and a clear understanding that these organizations do 
have to work together to get the result you're looking for.
    Chairman Manzullo. Thank you. Mr. Udall, did you have any 
questions?
    Mr. Udall. Mr. Chairman, I wanted to thank the panel. Your 
testimony has been very illuminating and inspiring. It has 
motivated me further in my travels to make the case that you 
all have made so eloquently.
    Mr. Chairman, I would like to yield my remaining time to my 
colleague, Mr. Langevin. I know he has additional questions and 
comments.
    Mr. Langevin. I do thank my colleague. Thank you.
    If I could, I would just like follow up and perhaps ask Mr. 
Kosak. Your testimony was particularly compelling.
    Can you tell me, on average, how much your company has 
spent in terms of reaching accommodations and employing people 
with disabilities; and likewise, have you taken advantage of 
any of the government programs out there that house small 
businesses and encourage small businesses to encourage hiring 
people with disabilities.
    Mr. Kosak. The answer to the first part of your question 
is, in 10, 12 years I have invested $7 toward accommodations. 
That was to buy a calculator with oversized numbers so that 
somebody that was visually-challenged was able to see the 
numbers.
    Accommodating in the workforce, the reality is that we all 
accommodate for one another all the time. One of the things 
that my crew learned right away is that there is nobody--
absolutely nobody in the workforce that doesn't need special 
assistance at one time or the other.
    Once you get beyond the physical stigmas that are attached, 
and get to the reality of things, you discover right away there 
is no additional expense.
    My training cost, obviously, went down dramatically. In 
fact, that goes to the point of your second question. There is 
targeted job tax credit, which I have taken advantage of. They 
are a big help to small business--invaluable, I think, in 
encouraging a company to take a shot.
    There is nothing like a grant here or there to make them 
take a step over a line, and then, later they are going to 
thank you for it.
    The training monies that are available, the first few 
years, I couldn't in clear conscience take it. I was training 
continuously prior to then, and my training had stopped because 
I didn't have the turnover.
    Now as the glass ceiling has continued to rise, and the 
technical barriers that I sometimes face, whether it be 
signing; whether it be certain things, yes, I am starting to 
take advantage of some that.
    So it is a valuable part of the process, but it is 
selective because, again, I think small business as much as 
anybody appreciates efficiency and prudence. So you don't take 
what you don't need. But it is there. It is important because 
on occasion you are going to use it.
    Mr. Udall. Along those lines, is there anything, in 
addition to the things you have already stated, the government 
could or should be doing to make it easier to employ people 
with disabilities?
    Mr. Kosak. I think the most important role that government 
can play is to take all of these great organizations that are 
working toward the same end, and getting them on the same page 
so that they understand that--it's extremely close.
    What we need is to push some politics aside; push 
philosophies aside; pay attention to the needs of the 
community, and that being the needs of small business and the 
needs of the people that need to be employed. They are both out 
there waiting.
    One group is waiting without employees. The other group is 
sitting in the living room waiting while we all decide what is 
best for them. I think if we can get these groups together, the 
answers are all out there. So the key thing that government can 
do is small business should be partnering with these agencies--
with VR and all that.
    We should be paying attention to programs that are out 
there supporting them because they create these stepping stones 
into the community.
    Mr. Udall. Thank you. And if I could, the last one, if I 
still have time, to Ms. Fiore. If you could describe, in a 
little bit of detail, the process that you engage in when you 
are going to train someone with a disability for a specific job 
once you've been contacted and you're placing the person in the 
job.
    Ms. Fiore. Certainly. The process that we take is to look 
at an individual's dreams, and then, ask them to form some 
actual goals. Basically, if an individual has a severe 
disability, technology and tapping in to the services through 
the public rehab program can help them get the skills and the 
technology that they need to overcome those limits.
    We take a very one-on-one, customized approach, adding, not 
only the technology, which is the access for an individual to 
do a job like you saw in the video; but we also take a look at 
remediating some of the core skills of spelling, reading and 
writing that a person with a disability--a severe disability 
from birth does not always come out of high school with the 
same level of education as an individual who is not disabled.
    For example, if a person with a disability has a scribe 
that helps them write all of their tests and all of their 
papers during school, it is not unlikely to meet a very bright 
person like Carlos in the back of the room who just doesn't 
spell very well because it's later in life that he receives 
that form of access.
    So we take a look at all of the federal programs that are 
available. We look at the labor market statistics of the 
business economy--what type of people are they looking to hire, 
and then, we try to match that up with the goals and dreams of 
people with severe disabilities, using technology and training 
to bridge the gap.
    Chairman Manzullo. Thank you, Ms. Fiore. Mr. Davis, did you 
have any questions?
    Mr. Davis. Yes, sir, Mr. Chairman, I do. Let me, first of 
all, thank you and Ranking Member Velazquez for holding this 
hearing. As a matter of fact, I have found it to be very 
intriguing.
    I also want to commend my colleagues, Mr. Langevin and Mr. 
Udall for the leadership and sensitivity that they displayed in 
relationship to this issue. It was also pleasing to note that 
although neither one of them are what we call veterans around 
here.
    They are relatively new, but very early and very quickly 
they have seized upon an opportunity on an issue, and I think 
that speaks well to their level of understanding and maturation 
in what it is that they are doing.
    Of course, Mr. Chairman, I want to thank the panelists for 
coming and testifying. Of course, with your being from 
Illinois, you know that we are firm believers in the notion 
that you can't lead where you don't go; and that you can't 
teach what you don't know.
    I am very pleased to note that a member of my staff, Bob 
Hart, the good looking gentleman there with the gray suit on, 
who does outstanding work and has prepared an excellent 
statement to date that I would like unanimous consent to submit 
for the record, if I could, Mr. Chairman.
    Chairman Manzullo. Without objection it will be admitted.
    Mr. Davis. Thank you very much. Of course, Bob is 
challenged. Bob is partially blind and I can tell you that the 
level of work that he does--the level of work that he has done 
and his keen insight and understanding, he has been our 
champion as I am a sponsor of the Macassa Bill.
    Bob has done most of our work on Macassa, and I know that 
it is in great hands when he is handling it. So I am going to 
advocate for anybody that has never had a disabled person or a 
challenged person physically working for you, then you, too, 
might get that experience.
    Then when you have talked to small businesses, you're 
talking from experience and not from research or speculation. 
You are talking what it is that you actually know. I've 
listened intently to the discussion, and it seems to me that we 
are suggesting that education is an obvious key in terms of 
trying to acquaint small businesses with the benefits that 
could, in fact; and would, in fact; and does, in fact, derive 
from their employment of challenged individuals.
    As a matter of fact, in our community we oftentimes don't 
allow utilization of the term disabled. We have a group that we 
work with, and they just say that they are physically 
challenged. And that it means that they've got to put forth a 
different kind of effort sometimes in order to accomplish what 
others would accomplish.
    My question is, and of course, I was interested, Mr. Kosak, 
to listen to your testimony and to know that you made pork for 
the Republican convention. I know that my colleague doesn't 
know anything about pork and stuff like that.
    Chairman Manzullo. Mr. Davis, that's because I'm a cattle 
producer. [Laughter.]
    Mr. Davis. But my question, in addition, the education--I 
mean, we have got incentives. Are there other legislative 
things that come to mind that we might be able to do that would 
add another dimension of opportunity for individuals who are, 
in fact, challenged and who couldbenefit from additional 
attention to their special needs?
    Ms. Fiore. Yes, may I?
    Mr. Davis. Yes.
    Ms. Fiore. The IDEA is the legislation that provides 
services to students with disabilities during the public 
education process. There is very little funding for transition 
services.
    When a student goes from public education to adulthood, 
they are kind of lost in an unfunded place because the school 
system is waiting for graduation when the 80-year old program 
of public rehabilitation can take over and start funding 
services for those students.
    The Office of Vocational Rehabilitation is an alternative. 
It operates with a $2.3 billion budget serving all of the needs 
for education, technology and training of not just the people 
with disabilities, but also, to help the businesses in hiring 
them.
    So transition funding in the IDEA, and additional 80-year 
old public program of vocational rehabilitation can allow so 
much more to happen. Thank you.
    Mr. Davis. Well, thank you very much. And I think a great 
deal like my colleague from California who always thinks big 
that there isn't enough resource in the allocation and we need 
to add to that.
    So Mr. Chairman, that concludes my portion.
    Chairman Manzullo. I appreciate that. One of the shameful 
things that Congress has done is created the unfunded mandate 
idea and turned around and not funded it. It's been a 
tremendous burden on the local school districts and we have all 
fought to bring it up to the original amount, but it has been 
funded to about, I think, 35 percent. And it's been woefully 
deficit.
    Well, thank you all for this testimony. We thank you all 
for taking the time. If we could get the second panel up here 
as soon as possible. I want to make sure we have plenty of time 
for them. Thanks again.
    (Off the record at 11:40 a.m.)
    Chairman Manzullo. The Committee will come to order. The 
second panel we would like to welcome. As the first witness, 
Guillermo, Bill--that is a Swedish name like Manzullo, I 
presume--Vidal?
    Mr. Vidal. Vidal.
    Chairman Manzullo. I look forward to your testimony.

   STATEMENT OF GUILLERMO VIDAL, EXECUTIVE DIRECTOR, DENVER 
            REGIONAL COUNCIL OF GOVERNMENTS (DRCOG)

    Mr. Vidal. Thank you, Mr. Chairman, members of the 
Committee. It's an honor to be invited to testify in front of 
you today. My name is Guillermo Vidal. I am the executive 
director of the Denver Regional Council of Governments, also 
known as DRCOG.
    We are a voluntary association of 51 county and municipal 
governments in the Denver, Colorado metropolitan area, and here 
we work together to resolve our regional issues. We are also 
the metropolitan planning organization as designated by the 
federal transportation legislation, the Transportation Equity 
Act of the 21st Century, also known as TEA 21.
    As you can imagine, like any major urban area across the 
country, the Denver region is grappling with unprecedented 
growth and development. Between 1990 and 2000, we grew by one 
million new residents, and that was a 40 percent increase of 
population in a 10-year period.
    We also expect another million people in the next 20 years. 
So our growth, although it may have slowed down some, we are 
still going to see large numbers in our area. This growth 
brings many challenges, none less daunting than providing an 
adequate transportation system for our region citizens.
    So we as the metropolitan planning organization are the 
ones who work with implementing agencies to develop the 
transportation plan for our area. That's why I am here today in 
support of H.R. 1035 sponsored by our own Congressman Mark 
Udall.
    Because of our responsibility to establish a transportation 
plan, we know that the increase and demand on our highway 
systems makes the effective use of telecommuting an imperative. 
The basis of my support of this bill is threefold. By 
encouraging small business to adopt telecommuting programs, 
H.R. 1035 will accelerate the practice of telecommuting, which 
will reduce the number of cars on our highways during the peak 
congestion periods.
    Secondly, DRCOG offers consulting services to the 
metropolitan area employers where we help them establish 
telecommuting practices and policies. The enactment of H.R. 
1035 would potentially increase demand for these services, 
enabling us to help more employers to establish telecommuting 
programs.
    Third, you heard some compelling arguments by people with 
disabilities and small businesses and how many employees they 
make up. We know that transportation services for disabled 
people who cannot drive are greatly underfunded. When you can't 
drive, at least in our community, you become isolated in that 
community.
    So H.R. 1035's emphasis on small businesses to particularly 
encourage telecommuting of employees with disabilities will 
allow more disabled people to find increased opportunities to 
enter the workforce without needing transportation services as 
they can work from home. The technology already exists.
    DRCOG has long been in the business of managing demand on 
our transportation system. In 1999 we created an organization 
called Telework, Colorado. We did so in the firm believe that 
telecommuting holds great potential as a key element of our 
region's transportation solution; particularly, because 
telecommuting completely eliminates commuting trips, not just 
reduces them like other commuting options.
    Even if you telecommute part-time, there is an elimination 
of those trips. Through our experience, we can confirm many 
impressive results yielded by employers that adopt 
telecommuting programs. For example, 85 percent of employees 
participating in Telework, Colorado report increased 
productivity and 90 percent report improved morale due to 
telecommuting.
    On the average, they save 82 minutes per day due to 
participation in telecommuting work arrangements. Employees 
telecommuting are helping reduce the traffic congestion and 
improve our air in Denver. Last year alone, we measured a 
reduction of nearly 750,000 commuter vehicle miles and 13 tons 
of air pollution, a reduction of that, demonstrating the 
potential for telecommuting to help reduce traffic congestion 
during peak commuting periods.
    By enacting H.R. 1035, you can raise the awareness among 
small businesses about the virtues of telecommuting, thereby, 
encouraging to adopt telecommuting programs. I also offer our 
services at DRCOG in implementing the provisions of H.R. 1035 
should Denver be chosen by the Small Business Administration as 
one of the five SBA regions for its telecommuting program.
    On behalf of the Denver Regional Council of Governments, I 
urge your support for this legislation to bring the 
productivity and improvement of quality of life and other 
benefits of telecommuting closer to reality for thousands of 
Americans. Thank you for the opportunity to give this testimony 
today.
    [Mr. Vidal's statement may be found in the appendix.]
    Chairman Manzullo. Thank you very much.
    Mr. Udall, I forgot we had a bifurcated panel. Did you have 
an opening statement that you wanted for this part of this 
hearing that you helped bring together?
    Mr. Udall. Mr. Chairman, I'm very intrigued to hear the 
testimony of the panel. If I could include my statement in the 
record, I would appreciate it.
    Chairman Manzullo. That would be fine.
    Mr. Udall. I ask unanimous consent to do that. Then when we 
question the panel, I will have an opportunity to make some 
more remarks.
    Chairman Manzullo. That will be fine. Thank you. I 
appreciate that.
    Mr. Kane, we look forward to your testimony.

   STATEMENT OF TIM KANE, PRESIDENT, INTERNATIONAL TELEWORK 
                 ASSOCIATION AND COUNCIL (ITAC)

    Mr. Kane. Thank you. I would like to thank the Chairman and 
the members of the Committee for inviting me here today to 
share my perspectives on telework and express my support of the 
Small Business Telecommuting Act.
    I hope that today I can shed some light on sort of the 
state of telework in this country, which will further lend 
support to this bill, and hopefully, provide some insights as 
you over the bill forward.
    I feel that my experiences add--I come at this from several 
dimensions. I am CEO and founder of a company called Kinetic 
Workplace, which is a small business based in Pittsburgh.
    It's a small business that consults to Fortune 500 and 
Fortune 1000 companies on how to set up telework programs. So 
we work with many large organizations. I am also proud to say 
that I am the president of the International Telework 
Association and Council, whose mission is to drive the growth 
and success of work independent of location and promote the 
economic, social and environmental benefits of telework.
    I should probably start by--before I go any further, I 
should probably say that there is a lot of different 
definitions that float around. We hear about telecommuting. We 
hear about telework. I can't say how often people ask me what 
the difference is.
    Telecommuting is a concept of people working from home 
avoiding a commute into the office. Telework is a more 
encompassing concept that enables people to work anywhere at 
anytime. Those are the folks that are working from hotel rooms, 
airport clubs--those types of things. So I put that forward 
just as a baseline for definitions as we move forward.
    Telework has come a long way; particularly, in the past few 
years. Since 1998, we have seen it increase dramatically in 
this country. ITAC's annual telework America research from 2001 
found that there about 28 million teleworkers in the United 
States. That's up from 1999 when we had 19.6 teleworkers in the 
country.
    I believe that there are--I have seen also studies out 
there that say there will be about 50 million teleworkers by 
the year 2006, which is about one third of the U.S. workforce.
    What's attributed to this growth since 1998? I personally 
believe it can be attributed to four things. One, the 
continuing availability of broadband access throughout the U.S. 
I think there is also an increasing emphasis on work/life 
balance, and the employer's need to compete for precious talent 
by providing these types of programs.
    Telework is continually in the top three preferred 
prerequisites amongst knowledge workers. Amongst IT workers, it 
generally ranks No. 1 or No. 2. So it is a powerful benefits 
package for employers.
    I think the third thing is the sharp increase that we saw 
in rental rates in 1999 and 2000. Many of us in small business 
in the tech industry were paying $90 per square foot for space 
in markets in Boston, San Francisco, Austin, Texas. Now those 
rates have gone down, but it certainly made an impression upon 
us as to how we can lease less space.
    I think that the last thing is the continued comfort that 
people are having with internet security. Virtual private 
network or VPN technology has become very common to people; 
very accessible to businesses; and it gives them a certain 
level of security that their data can be put out on the 
internet to a variety of different locations.
    So I think those four factors have really shaped the growth 
of telework. I think they will continue to shape the growth, 
and I do believe that 50 million teleworkers number is 
achievable by 2006.
    ITAC's research is also shedding light on who is 
teleworking. We are starting to learn a lot more. We know that 
most teleworkers are concentrated in the Pacific region or in 
the Northeast. We know that they are generally in a 
professional or managerial role or in a sales position.
    A typical teleworker earns $40,000 a year or more. I think 
of particular relevance to this Committee, most teleworkers 
work for either very small organizations--25 employees or 
less--or very large employees, over 1000 employees. The highest 
concentration out of all those brackets is within companies 
with 1 to 25 employees.
    My experience in helping companies implement programs tells 
me that small businesses are at somewhat of an advantage in 
implementing telework programs because of their flat 
organization structures. They do not find themselves to be 
faced with a lot of the issues that come up with managerial 
anxiety, et cetera.
    Chairman Manzullo. How are you doing on time--talking about 
anxiety.
    Mr. Kane. Speaking of anxiety.
    Chairman Manzullo. Including 30 seconds there.
    Mr. Kane. Okay. I think that telework is a key for small 
business. It can provide greater agility, flexibility. It can 
provide more of an opportunity for organizations to reduce 
costs and increase productivity.
    And if I could say one final thing, I think it's very 
important that the Committee, and the Small Business 
Administration, looking at this bill do a little bit more 
research into the needs of small business in telework.
    Most major studies have focused on the needs of enterprise, 
large organizations, and I think it can only be helpful to this 
bill's effectiveness to delve further into the needs of those 
small business. So I thank you much and I commend Congressman 
Udall for putting this bill forward.
    [Mr. Kane's statement may be found in the appendix.]
    Chairman Manzullo. Thank you, Mr. Kane. Our next witness is 
Jane Anderson, Executive Director of the Midwest Institute for 
Telecommuting Education, commonly known as MITE. I look forward 
to hearing your----
    Ms. Anderson. Affectionately known.
    Chairman Manzullo. What is that?
    Ms. Anderson. Affectionately known.
    Chairman Manzullo. Affectionately? I look forward to your 
testimony.

    STATEMENT OF JANE ANDERSON, EXECUTIVE DIRECTOR, MIDWEST 
             INSTITUTE FOR TELECOMMUTING EDUCATION

    Ms. Anderson. Thank you, Chairman Manzullo and Ranking 
Member Christian-Christensen and to Congressman Udall for 
introducing this legislation.
    I come from an organization that started in 1989, 
affiliated with the Minneapolis Rehabilitation Center in the 
Twin Cities, and the State of Minnesota, asked us to develop a 
home-based work program for people with disabilities.
    Along from just encouraging businesses to utilize telework, 
which we strongly advocate, it was also kind of a new concept 
in the midwest. In the first year, though, there were over 100 
people that came to us with disabilities who wanted telework 
jobs. Since then, MITE was developed to train employers on all 
those issues that small business have concerns about in hiring 
someone to be off site.
    So what we have found is that, surprisingly enough, there 
is a whole, hidden pool of people who have chronic changing 
disabilities, such as multiple sclerosis, arthritis, rheumatoid 
arthritis, heart disease, diabetes--the kinds of conditions 
that when you meet the person you may not realize they have a 
disability. But the issue is common among all of them. It is 
fatigue and lack of stamina to get up, drive to work, spend a 
whole day working.
    So what we realized is, that whole population is quite 
broad, and the age range was actually from about 30 to 55 years 
old of people referred. They really wanted to work about 30 
hours per week to ensure they maintained their health.
    So we also saw a need from our employers--the need for a 
customized skill training before teleworkers went off site, 
because to work remotely you need PC skills. You need customer 
service skills and you need phone etiquette as well. All the 
kinds of skills that you need to interact with people from a 
distance.
    We also included a flexible training program for 
teleworkers, and along with that, home-based training if some 
people needed it. So that was truly a successful element of our 
program.
    The types of jobs that most people started, and in terms of 
meeting the small business need, jobs were customer service--
proofers, data entry. These are people that have been out of 
the workforce for up to 20 years who were referred.
    Secretaries--I have a home-based secretary who has been 
with me for 11 years, and she has arthritis and has extreme 
difficulty in driving and moving. But she knows our customer 
base. She knows all the individuals that are on staff and works 
closely with us. She comes into work one day per month.
    The important element is that she spends quality time with 
us, not quantity. So I have found that the quantity of time you 
spend in an office doesn't always necessarily mean that it 
leads to productivity.
    The necessary teleworker skill, though, particularly wanted 
from our employers we brought on as a small council, was 
customer service. And the small employers also needed to 
nurture their customer services. The two issues they have are 
lack of time to implement telework and customer service. So 
help us do this quickly.
    So the advantage to small businesses were ADA compliance. 
It helped them recognize, through actually doing, the things 
they could implement with people with disabilities. Decreased 
employee recruitment costs--a lot of customer service, a lot of 
positions in companies turn over at the rate of about 33 
percent per year; and in most companies, it's too hard to deal 
with recruitment.
    Also, cost containment--saving occupancy costs, as Tim 
suggested; expanded geographic reach--one company with which we 
worked, Service 800, now has sites in London, Twin Cities and 
best of all, Alexandria, Minnesota. Those are pools of 
teleworkers that work in their homes and they conduct customer 
service for high tech firms, finding out how they're business 
product is doing. They have grown from 25 employees to 200.
    Obtaining buy-in from the businesses was important, too. So 
the placement approach is that we sat with the businesses and 
helped them determine where is your need? Where do you need 
staff that is not in the office? Where are you not meeting your 
customer needs now?
    So one company we talked with, Precision Tune, brought on 
four people to do customer follow-up. They didn't have that 
kind of program. The concerns of small business--how to screen 
and recruit appropriate persons. Once again, vocational 
rehabilitation and our agency helped them do that.
    The support services, in terms of set up--would you help 
with training? That was an important component, too. The 
employee, they felt--they worried they would have lack of 
knowledge about the company. So we assisted teleworkers on 
going into the office, and they needed to spend a little time 
in the office. And then, once again, the customized training.
    Other concerns were safety and liability. There is no 
greater risk for people with disabilities in the home than 
there is out on the road for any of us. Just ask yourself this 
at rush hour traffic.
    Supervision and productivity--we helped them look at what 
are they really trying to measure. And then, disaster 
recovery--what happens if people can't get to the office. That 
proved to be another important strategy for small businesses.
    Our major implementation collaborators were the state 
Vocational Rehabilitation, which helped supplement training 
monies for individuals. Our agency, Resource, Inc, which MITE 
is a part of, the Small Business Association and the Chambers 
in which we actually conducted training so we could meet their 
business needs. They also wanted those quick-start ways to help 
them do this.
    So what we found, over time--and this program still 
continues today, and it places 24 people per year. The three-
prong approach is using a disability placement agency that 
provides training, screening and support; comprehensive 
telework education for small business so they can implement 
comfortably; and then, support of a small employer advisory 
council and the state Vocational Rehabilitation once again.
    The need is there. The talent is there, now we need the 
resources to open up opportunities for small businesses and for 
people with disabilities to work together. Thank you.
    [Ms. Anderson's statement may be found in the appendix.]
    Chairman Manzullo. Thank you very much. I just have one 
question--actually, it is more of a comment. That is, I come 
from the midwest. Rockford is the second largest city in the 
state, but many of the smaller areas; especially, to the west 
of Rockford on the way to the Mississippi River, have lost 
population.
    We had better come up with new and innovative ways to keep 
the kids in the rural areas--the rural values, the quality of 
life--otherwise, we are going to have people going to both 
coasts.
    I mean, it pollutes the air. It jams the traffic. I am 
particularly intrigued because a good friend of mine was a 
pastor in Miltona, Minnesota--not to far from Alexandria--and 
we caught some good fish there together. But Alexandria is 
what, about two and a half hours outside of Twin Cities?
    Ms. Anderson. Yes, two and a half.
    Chairman Manzullo. Then you are about the same distance 
from Fargo, correct?
    Ms. Anderson. About four hours.
    Chairman Manzullo. So you really are sort of isolated 
there. How many people are working on the telephone there in 
that city?
    Ms. Anderson. They hired 60 people to work in their homes. 
SERVICE 800 no longer recruits--they no longer have any 
difficulty recruiting people.
    Chairman Manzullo. So the people all live in the small 
town.
    Ms. Anderson. In or about, yes.
    Chairman Manzullo. But they all work out of their homes 
individually. That's an amazing story.
    Congressman Udall, first of all, thank you for this segment 
of the hearing. This is really fascinating, and please, go 
ahead.
    Mr. Udall. Thank you, Mr. Chairman. As I said earlier, I 
look forward to seeing my statement in the record. I would like 
to turn to the panel for some questions. But before I do that, 
I did want to thank you and Ranking Member Velazquez and 
Ranking Member today Donna Christian-Christensen for holding 
the hearing today. This has been a good day for all of us.
    I did also want to also acknowledge the two staffers in my 
office who worked really hard on this, Ian Pfeiffer, who now 
works for Congressman Filner, initially, brought this idea 
forward; and then, Zach Phillips, who is here today with me. 
They have done the yeoman's work on this particular area. I 
just very pleased that we have had a chance today to begin the 
discussion.
    I think we saw in the hearing on Congressman Langevin's 
bill the synergies that exist with telecommuting, telework of 
the disabled community. Mr. Chairman, you have talked about the 
great benefits we see in the environmental arena if we get 
people off the roads, and my good friend, Guillermo Vidal 
talked about it in the Denver area in particular.
    I would like to just mention that this bill has also been 
introduced by Senator Kerry in the Senate. He was motivated, as 
was I, by the realization that small businesses--and Tim you 
talked about this--were in many ways being left behind when it 
came to teleworking and telecommuting.
    The whole idea of this legislation is to encourage the 
Small Business Administration--to give them the statutory 
authority to conduct a pilot program to raise additional 
awareness about telecommuting and telework. We would create 
five regions and the SBA would then bring these pilot programs 
into those regions. We hope that we would see one in Denver, of 
course; but it would be most important that we begin the 
process of making these programs available to people across the 
country.
    Let me just throw out a general questions to the panel. I 
think we all know how strongly the case can be made to the 
benefits of telecommuting and telework. There are some folks 
who would rebut those arguments or who would say there are some 
problems. I would just like each one of you to talk, just 
briefly, about the problems that have been suggested that might 
arise and what you have seen actually in reality when it comes 
to the work place.
    Maybe we can start with Guillermo and then move right down 
the line.
    Mr. Vidal. We spent a lot of time, actually--we are a 
consultant to businesses to establish telecommuting policies. 
What we are finding--the biggest problem is normally one of 
education. I think, culturally, it seems like we are more used 
to measuring attendance than we are performance. So that 
sometimes what you have to do is how do you structure the 
measuring of performance of the employee?
    What we have found in helping businesses is that once we do 
that, and they get over the discomfort that this person may not 
be showing up to the office every day, and they start seeing 
the production that's happening from home, what we find is that 
employers are--I mean, we have found this 100 percent of the 
time that employers are convinced that this is a great tool for 
morale, productivity and actually for attracting new employees.
    So we find that if you can cross that barrier of education 
that you can get converts.
    Mr. Udall. Bill, in the Denver area you have a wide 
membership in this consortium that's supporting telecommuting. 
Would you just share with the Committee some of the 
organizations and some of the interests that supported this 
effort?
    Mr. Vidal. Well, most of the people that have supported 
this effort have been large businesses such as AT&T and CH2M 
HILL, which is a large engineering consulting firm. But also, 
the downtown Denver partnership, which is basically a 
membership organization of businesses in the lower downtown 
area, have really sponsored what we are doing in telework for 
the reasons that I mentioned.
    I think that because small businesses make up such a larger 
number of employers, that there is great interest in doing more 
for small businesses.
    Mr. Udall. So it is very broad-based.
    Mr. Vidal. Very broad-based.
    Mr. Udall. We have got a number of municipal governments--
regional government entities and wide support among those 
entities as well, is that right?
    Mr. Vidal. Yes.
    Mr. Udall. Tim, talk a little bit about the concerns people 
raise with telecommuting and what you have learned and how you 
would respond.
    Mr. Kane. It is almost--over eight years of doing this, I 
have kind of come up with like a David Letterman Top 10 list of 
things that I always hear when I talk to people. I would say 
some of the top ones are how do people--everyone wants to work 
in teams today. How do they work in teams if they are not 
physically proximate?
    We all know that there are a lot of technological tools out 
there--instant messaging. There are a lot of other tools to 
facilitate those type of communication.
    The second would be what is my increased cost in IT? 
Oftentimes, today, it's a minimal investment for an 
organization from an IT infrastructure standpoint to make the 
transition over. A lot of it is more around training--making 
sure that people are ready to go into that more virtual-type of 
environment.
    Number two would probably be what is the increased 
liability? I can't tell you how many times people say somebody 
goes to the refrigerator, trips and falls, and I have got a 
workman's comp claim. I think, through this bill and SBA's 
work, there is a lot of education that can be done. There has 
been a study at the U.S. Department of Labor that has shown the 
number of instances of workman's comp claims amongst 
teleworkers is statistically meaningless.
    Then last, the number one reason that we all come across is 
how do I know they are working if I can't see them? And we just 
touched on this. How do you know they're working if you can see 
them? How do you know they're working if you're in the office? 
As the gentleman mentioned about objectives-oriented 
measurements--those types of things.
    All these things can be overcome through education and just 
making people aware of things. It's out there. It exists today. 
It can be done.
    Mr. Udall. All the more reason for a program or a set of 
programs that would provide educational services to small 
businesses to answer so many of those questions.
    Jane, I listened with great interest to your testimony, and 
thanks for this very comprehensive statement and presentation 
that you have provided us.
    When you talked about your assistant with arthritis and so 
on, I was reminded of the fact that Ihave a very good friend 
who was paralyzed from the waist down in a climbing accident. He, at 
one point, began to call me a TAB. I said what is that term? He said 
you are temporarily able-bodied.
    The point was that all of us, at some point or another, are 
going to have a disability. And you don't think of arthritis 
necessarily as a disability, but many of us are going to face 
conditions as the baby boomer generation ages.
    Mr. Chairman, as the stock market continues to fall, and 
all of us look at working longer and longer, we are going to 
want to have, I think, in our own generation access to these 
tools that technology is now providing us; and so many of us 
maybe telecommuting and teleworking as we work longer in our 
lives, too, for all the good reasons to be more serious.
    Would you just speak to my question as well? The arguments 
about, well, this won't work and people don't see each and how 
you have responded and what you have seen through experience.
    Ms. Anderson. Thank you. Through our experiences, we have 
found that--I supervise people that are off site, and I 
consider myself similar to a small business, even though, I'm 
non-profit. Well, actually, I might be a lot of small 
businesses at this point, too, but what we do is plan our 
communications and that's what it takes. That you plan your 
time together and your time when you communicate by phone and 
by e-mail.
    It makes it much more efficient rather than having 
someone's go to someone desk in the office eight times a day 
with a different question each time, and then, distracting 
them. Most of productivity is lost due to interruptions and 
distraction.
    I want to give you an example. We worked with Hennepin 
County, and they had ticket processers on site in cubicles. The 
average number of tickets they processed per day was 450. They 
moved them totally off site full-time and the number of tickets 
processed per day per person went up to 900. They said ``What 
was going on?'' They said the distractions. People stop by and 
say hello. The minute is lost. We found that in our 
organization, too. You lose so much productivity because lots 
of jobs require thinking, writing, reporting, talking, and 
communicating. If that train of thought is lost, it is hard to 
regather it.
    I think another issue concerning people with disabilities 
is the sense of isolation, and that, a long time ago was 
brought up as a major issue. Well, here we are isolating 
people. But we actually--MITE worked with the Virginia 
Commonwealth University a year ago to survey 60 teleworkers 
with disabilities who had been off site for two or more years, 
and asked them that question about isolation.
    Over 90 percent said they never feel isolated, and one of 
the reasons is that they communicate with their employer. They 
communicate with their team in other ways and they also have 
time for family. They balance their work and life better. As 
Tim brought up, too, balancing the work and life.
    Regarding the liability and safety issue--we worked with 
St. Paul Company Insurance, and that was very important at the 
beginning to get a grasp on what is the actual liability 
issues. St. Paul Companies is not concerned about home-based 
workers or teleworkers. They are worried about those of us with 
lap tops and cell phones, using them inappropriately most of 
the time.
    They said that is where our injuries are. That is where our 
worker's comp injuries are. It is not so much with people that 
are working in their home. They know their homes. For people 
with disabilities, I think, ergonomics is important because 
poor ergonomics points to more fatigue and strain as in the 
office.
    So what we found was that, interestingly enough, companies 
who have good worker's comp programs on site will have good 
worker's comp programs and ergonomic programs off site, too.
    Chairman Manzullo. Thank you. Mr. Langevin, do you have any 
questions?
    Mr. Langevin. Mr. Chairman, I want to thank you for holding 
this hearing, and Mr. Udall for sponsoring this legislation. I 
am proud to be supporting it. Thank you to members of the 
panel.
    Not so much a question as a comment because I want to yield 
my time to my colleague. Telecommuting is becoming more and 
more of an essential option for businesses, both in terms of 
attracting employees and in terms of cost-cutting, not to 
mention that this is a wonderful option--a great marriage 
between those with disabilities and small businesses allowing 
them to partner up.
    Ironically, I was doing work in Florida over the weekend, 
and had the opportunity to meet with the vice president of a 
major telecommunications company in this country. He was 
describing how one company, by way of example, Jetblue, cut 
costs. They are a major user of telecommuting services now. 
They eliminated the need to lease a building when they are 
doing their bookings in terms of having people actually come 
there. They have a software package that can move around with 
the individual.
    If someone moves, they can just take it with them and they 
are still an employee of Jetblue booking people on their 
flights. Again, it is helping their productivity as well as 
attracting and keeping employees.
    With that, I would like to yield the balance of my time to 
my colleague, Mr. Udall.
    Mr. Udall. Thank you, Mr. Langevin. Mr. Chairman, you have 
been very flexible here. I thought I would ask one final 
question because I know we are running late. In an area of 
great interest to you, and you just alluded to your concerns 
and interest, and that's broadband access. I would ask the 
panel if they have any advice or concern about broadband access 
and how important it is or isn't to telecommuting and telework? 
I know, Mr. Kane, you work particularly in this area.
    Mr. Kane. Prior to 1998, one of the main things that 
stopped the growth of telework was access and speed--access to 
the home. Most people in earlier studies found that they would 
rather go into the office. The reason that they did not 
telework was because they were connected at 2088 or something 
like that, that just did not provide them with the same speed 
and productivity that they could get from the office.
    Broadband has changed that dramatically. We are now seeing, 
through DSL, cable modem, and now we're seeing some great 
technology coming out in satellite broadband, which really 
takes away that `last mile' and frees it up to a lot more 
folks. I think that is going to be essential for the continued 
growth of telework. And having more robust applications, people 
will be able to do them from anywhere at anytime. It's going to 
be critical to have that speed. I have seen it dramatically 
since 1998 cause the explosive growth of telework.
    Mr. Udall. So you would encourage us to continue our 
support of broadband deployment and to continue to work on the 
problem of so-called digital divide. That is an area in which 
we need to continue to pay attention; particularly, when it 
comes to rural areas and some cases urban areas that are also 
distressed.
    Mr. Kane. I think that's essential. And just to the 
Chairman's issue about the rural telecommunicating, I know that 
there is some great work going on right now at Washington State 
University on that subject matter. So I would encourage the 
Committee, if that is something that you would like to talk to 
those folks.
    Mr. Udall. Mr. Chairman, again, if I could conclude, I 
would like to thank you for holding the hearing today. I wanted 
to thank our panel for taking their time, and I know we are 
going tocall on you in the future as we hope we can move this 
legislation and Mr. Langevin's as well.
    I did want to, again, thank my good friend, Guillermo 
Vidal, for making the long trip. I would point out, Mr. 
Chairman, Guillermo headed our DOT, Department of 
Transportation, under Governor Romer. So he was involved in the 
physical movement of people and ideas and culture and goods. 
Now he is involved in a virtual enterprise of moving people and 
goods and services and ideas.
    I want to thank you for your leadership and look forward to 
working with you in the future. Mr. Chairman, again, thank you.
    Chairman Manzullo. Thank you very much. There was an 
article that appeared in the Rockford, Illinois newspaper on 
Sunday dealing with the tremendous challenges to our 
manufacturing base, and Norma Wooten King, who runs a place 
called Eveready Pin. She was asked why she was busy. She said 
the first thing you do is you never have an automatic answering 
machine--that voice mail or whatever it is answer a business.
    I know we are going to get some people offended here and 
everything, but I will call a business something--if I get that 
machine, I will just hang up and call somebody else. I don't 
have time to go through the steps to hit this number, hit that 
number and sometimes you have those kitchen telephones where 
you are actually holding the entire telephone yourself. So you 
have got to listen to the directions, take it down, hit the 
right number, by that time, you missed the other one.
    She talked about the fact that when people call, they want 
a real, live voice answering as opposed to somebody giving all 
those directions. So whatever you could do to encourage people 
in business--especially, the big people. Actually, the small 
businesses now. The fact that you have that animated voice 
coming on is just so unappealing. I think it does more to turn 
away business and whatever you can do to displace those voices 
with some real live people working out of their homes, I think 
that's tremendous.
    Mr. Udall. Would the chairman yield?
    Chairman Manzullo. Of course. I know you concur with that, 
don't you?
    Mr. Udall. I do very much. I cannot recollect which witness 
it was. It may have been Jane, who talked about the concept of 
high tech/high touch, and the underlying theory is that as 
technology evolves and becomes more and more sophisticated, 
there is still a human need to have that high touch component. 
In other words, we still want to interact with each other 
through physical contact, through voice contact and a machine 
doesn't do it.
    One of the interesting things Jane was talking about was 
people being isolated or thinking they were going to be 
isolated. I can tell you, my daughter, on instant messaging, 
doesn't seem to me to be very isolated, even though, she is at 
home talking to her friends using that technology all over the 
city in which I live. So I wanted to agree wholeheartedly with 
what you are saying.
    Chairman Manzullo. I appreciate that. Well, thank you all 
for coming to Washington. Next year, if things remain the same, 
we need to follow up on this. You can tell I'm from the midwest 
here, but you guys have hit upon something that is so critical.
    We have been talking about this in terms of how do we keep 
the kids in the small towns. We have got to move certain 
segments of business in large cities back to the small towns 
and that's being done with what the three of you are doing. 
Your testimony is almost prophetic. It's just the beginning of, 
as far as I'm concerned, the study on how to revitalize the 
small towns in America.
    Thank you again--thank both of you for the tremendous 
effort in bringing in great witnesses. These witnesses today 
are absolutely stellar. Again, thank you. This Committee is 
adjourned.
    [Whereupon, at 12:42 p.m., the Committee was adjourned.]




    [GRAPHICS] [TIFF OMITTED]

</pre></body></html>
